<html>
<title> - CAREER AND COLLEGE READINESS IN PRACTICE</title>
<body><pre>[Senate Hearing 111-1131]
[From the U.S. Government Publishing Office]







                                                       S. Hrg. 111-1131

                CAREER AND COLLEGE READINESS IN PRACTICE

=======================================================================

                             FIELD HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   ON

           EXAMINING CAREER AND COLLEGE READINESS IN PRACTICE

                               __________

                     APRIL 1, 2010 (Columbus, Ohio)

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>






      Available via the World Wide Web: http://www.gpo.gov/fdsys/



                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

75-565 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001















          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

CHRISTOPHER J. DODD, Connecticut     MICHAEL B. ENZI, Wyoming
BARBARA A. MIKULSKI, Maryland        JUDD GREGG, New Hampshire
JEFF BINGAMAN, New Mexico            LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington             RICHARD BURR, North Carolina
JACK REED, Rhode Island              JOHNNY ISAKSON, Georgia
BERNARD SANDERS (I), Vermont         JOHN McCAIN, Arizona
SHERROD BROWN, Ohio                  ORRIN G. HATCH, Utah
ROBERT P. CASEY, JR., Pennsylvania   LISA MURKOWSKI, Alaska
KAY R. HAGAN, North Carolina         TOM COBURN, M.D., Oklahoma
JEFF MERKLEY, Oregon                 PAT ROBERTS, Kansas
AL FRANKEN, Minnesota                
MICHAEL F. BENNET, Colorado          

                      Daniel Smith, Staff Director

                  Pamela Smith, Deputy Staff Director

     Frank Macchiarola, Republican Staff Director and Chief Counsel

                                  (ii)











                            C O N T E N T S

                               __________

                               STATEMENTS

                        THURSDAY, APRIL 1, 2010

                                                                   Page
Brown, Hon. Sherrod, a U.S. Senator from the State of Ohio.......     1
Jordan, Crystal, Student, Metro Early College High School, 
  Columbus, OH...................................................     4
Caldwell, Bob, Superintendent, Wolf Creek Local School District, 
  Waterford, OH..................................................     7
    Prepared statement...........................................     9
Silas-Butler, Jacqueline A., Esq., Executive Director, Project 
  Grad, Akron, OH................................................    10
    Prepared statement...........................................    12
Phillips-Schwartz, Kristi, Director of Education Initiatives, 
  Cincinnati Business Committee, Cincinnati, OH..................    17
Jackson, Steven, Senior Vice President, Great Oaks Career 
  Campuses, Great Oaks District Office, Cincinnati, OH...........    19
    Prepared statement...........................................    22

                                 (iii)

  

 
                     CAREER AND COLLEGE READINESS 
                              IN PRACTICE

                              ----------                              


                        THURSDAY, APRIL 1, 2010

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                       Columbus, OH
    The committee met, pursuant to notice, at 2:12 p.m., at 
Metro Early College High School, 1929 Kenny Road, Columbus, OH, 
Hon. Sherrod Brown presiding.
    Present: Senator Brown.

                   Opening Statement of Senator Brown

    Senator Brown. Welcome. The Health, Education, Labor, and 
Pensions Committee, will come to order.
    This is our first hearing in Ohio on the Elementary and 
Secondary Education Act, and I appreciate all of you students 
and community members joining us. This high school had a trip 
to Washington a year ago, and I met some of you, I think. How 
many of you were on that trip? OK. Some of you were. How many 
were on that trip and don't remember that trip?
    [Laughter.]
    OK. But anyway, welcome.
    First, we will conduct this hearing pretty much in the 
following way. I will make a fairly brief opening statement 
just to sort of outline what the hearing is about and what the 
issues are about that we will be discussing.
    Then I will call on each witness to give a statement. Each 
of them has a prepared statement that they will give. And then 
I will ask each witness questions, and that will be the hour 
and a half or so of the hearing.
    I look forward to this. And again, thank you very much. I 
thank you as students, as faculty, as community members for 
hosting this hearing.
    I want to especially thank our hosts, Metro Early College 
High School. It is fitting we hold a hearing on career and 
college readiness on this campus. Under the leadership of 
Principal Marcy Raymond, Metro Early College High School 
students graduate more than ready for college. You graduate as 
accomplished college students with as many as 2 years' worth of 
college credit.
    I remember when I met several of you last year, the quality 
of questions you asked, the curiosity you showed toward 
government and toward other things were all quite impressive.
    The HELP Committee has held two hearings in Washington on 
reauthorization. We heard from a panel of international experts 
who described the economic cost of failing to educate our youth 
to internationally competitive standards, and we are becoming 
more and more aware of that as a Nation.
    In the second hearing, we heard from the Secretary of 
Education Arne Duncan about the Obama administration's 
priorities on reauthorization on education. As I said, this is 
the third hearing and the first field hearing that we have 
conducted, and we will get to the heart of the matter.
    Your experience with college and career readiness in the 
real-life setting of schools and communities is exactly the 
kind of input the HELP Committee needs as we take up this 
legislation, this so-called reauthorization of the past law.
    The Obama administration's blueprint for Elementary and 
Secondary Education Act, ESEA, reauthorization calls for 
reorienting title I toward career and college readiness for all 
students. The States are moving in that direction as well. The 
Chief State School Officers and the National Governors 
Association have partnered to develop a common core of college- 
and career-ready standards in English and in mathematics. This 
is a big step forward.
    The last two renewals, the last two reauthorizations of 
ESEA called on States to set ``challenging standards'' in the 
core subject areas and to develop State-wide assessment systems 
aligned to those standards in reading and mathematics. Those 
standards were not necessarily connected to the knowledge and 
skills we need for college or the 21st century workplace. This 
disconnect has been clear for many years.
    Yesterday, I had a roundtable discussion in Summit County 
in Akron at the Summit County Job Center. Every person around 
the table echoed the need for us to do a better job of 
connecting young people to college and careers during their 
time in school.
    Ohio has been a leader in the standards movement. Our State 
is an enthusiastic participant in the common core standards 
process. Ohio has moved to benchmark its standards against 
international standards, and the State is part of the 
Partnership for 21st Century Skills. Yet we have a long way to 
go.
    Ohio's average freshman graduation is 79 percent, exceeding 
the national average by 5 percent. However, the rate for black 
and Hispanic students is just above 64 percent. For low-income 
students, the rate is 73 percent. Sixty percent of Ohio's 
recent high school graduates enroll in college, which is below 
the national average of 66 percent.
    At the beginning, as freshmen, we have a higher rate of 
graduation in high school, a higher rate in Ohio of graduation 
than the national average. But in terms of going on to college, 
seniors going on to college, we have a significantly lower 
rate. Too many students never make it through the front door of 
a college campus. Those that do often do not make it through to 
a college degree or a certificate.
    Consider the following statistics from the Ohio Board of 
Regents. In 2007, 32 percent of Ohio high school graduates 
enrolled in Ohio public college took remedial math. So that is, 
one-third of Ohio high school students took remedial math in 
college. Twenty percent, one in five, took remedial English. 
Forty percent took at least one remedial course. So either math 
or English.
    For students starting in Ohio's public colleges in 2001, 
less than 60 percent graduated within 6 years. At community 
college, only 9 percent earned degrees, and just over half 
remained enrolled after 3 years.
    For our State and our Nation to remain competitive, we must 
dramatically increase these numbers. President Obama has made 
it a top priority, especially focusing on community colleges 
and helping people complete what they have begun when they are 
there.
    It will take more than a new set of standards and better 
assessments to get there. We actually have to deliver on 
opportunities for career and college readiness for our 
students. That is why we are here today. That is why we chose 
Metro.
    Today's witnesses have delivered on the promise of career 
and college readiness for students in some of Ohio's most 
disadvantaged communities. We know what works. We know how to 
measure it. We just have to mobilize the public will and the 
resources to do it.
    I would like to thank each of the witnesses again, and 
thank all of you that joined us. I will introduce the witnesses 
in the order seated and ask that they speak in that order.
    Crystal Jordan is a senior here at Metro from the Columbus 
City School District. Her home school is Walnut Ridge on the 
east side. During her entire senior year, Crystal has been 
enrolled in early college course work at Ohio State--excuse me, 
at The Ohio State University. I apologize.
    I am always corrected when I just call it ``Ohio State,'' 
like I did all my life. When I went there, I called it ``Ohio 
State.''
    After graduation in June, Crystal plans to attend The Ohio 
State University and major in marketing. She was awarded a 
Morrill Scholarship for full in-State tuition at OSU. Her 
parents are William and Rita Jordan.
    Are your parents here by chance?
    Ms. Jordan. No.
    Senator Brown. No? OK, I was going to introduce them and 
embarrass you if they were.
    [Laughter.]
    Bob Caldwell, career education. Bob Caldwell has been 
superintendent of Wolf Creek Local School since 1997.
    Wolf Creek Local School District is located in Waterford, 
OH, situated in southeastern Ohio, in the heart of the 
Muskingum River Valley in northwestern Washington County. It 
encompasses approximately 124 square miles, has two school 
buildings--Waterford Elementary School for K through 8, and 
Waterford High School, 9 through 12--and serves around 700 
students.
    He started his career in one of the most rural counties in 
Ohio, Vinton County, and one of the poorest. Prior to joining 
Wolf Creek Local Schools, Mr. Caldwell was superintendent for 
Warren Local Schools. He has also been a school principal and 
an English teacher.
    Jacqueline Silas-Butler, whom I have known I think longer 
than anybody on the panel, has served as executive director of 
Project GRAD Akron since 2006.
    Project GRAD Akron is 1 of 12 affiliate sites of Project 
GRAD USA, one of the leaders in the Nation. It is an 
educational reform program, which was established 8 years ago 
to increase high school and graduation rates of the more than 
2,000 students in the Buchtel cluster of the Akron Public 
Schools. Since its inception, Project GRAD Akron has provided 
research-based services and programs for students in grades 
kindergarten through college, their families, and their 
teachers.
    Jacqueline is from Middletown, OH, originally. An attorney, 
received her Bachelor of Arts degree in history and political 
science from OSU and her J.D. from the University of Akron 
School of Law.
    Kristi Phillips-Schwartz has served as director of 
education initiatives with the Cincinnati Business Committee 
since March 2008. She works with the Cincinnati Regents' top 
CEOs on education issues, primarily focused on improving 
educational quality in the urban core.
    Ms. Phillips-Schwartz comes to the CBC from the Thomas 
Fordham Institute, an organization devoted entirely to the 
reform of elementary and secondary education. She is a graduate 
of Ohio State, earned a B.A. in art education, and an M.A. in 
educational policy and leadership. She is a native of 
Cincinnati.
    Steve Jackson, senior vice president of Great Oaks 
Institute of Technology and Career Development. He joined Great 
Oaks--I think Great Oaks is the largest vocational school in 
the State, right?
    Mr. Jackson. Yes.
    Senator Brown. He joined Great Oaks more than 30 years ago 
as a marketing teacher and later a building administrator, 
provides leadership now in curriculum, instruction, technology, 
adult education, and represents Great Oaks in a variety of 
community organizations. He graduated with a Bachelor of 
Science degree from Ohio State and received his Master's from 
Xavier University, both schools that were knocked out of the 
NCAA tournament way earlier than I predicted on my brackets 
that I chose, thank you very much.
    [Laughter.]
    So welcome to all five of you.
    Crystal will begin. Each witness will speak for about 5 
minutes, I think, and then we will do questions.
    So pass the microphone down, and Crystal, we will start 
with you.

STATEMENT OF CRYSTAL JORDAN, STUDENT, METRO EARLY COLLEGE HIGH 
                      SCHOOL, COLUMBUS, OH

    Ms. Jordan. Good afternoon, Senator Brown and members of 
the committee.
    Senator Brown. I am sorry. I can't believe I just 
interrupted you. Everything that you say will be recorded in 
the committee testimony that other members of the Senate 
Health, Education, Labor, and Pensions Committee staff and 
members of the Senate will have access to. So even though you 
don't see 10 of my colleagues sitting to my left, they will all 
have access to what you say, and it will be printed.
    Thank you. Sorry.
    Ms. Jordan. That is OK.
    Thank you for the opportunity to be here and share my 
thoughts with you today.
    My name is Crystal Jordan. I am a senior here at Metro High 
School, Metro Early College High School.
    As a Metro Early College student, I am a graduating senior 
at my home high school, Walnut Ridge, while concurrently 
participating in the program here at Metro. Metro Early College 
High School is an educational option for our partner districts 
and is one of the only two options for early college STEM in 
Franklin County.
    For those of you who may not be aware, briefly, Metro is a 
small, public high school option for students from across 
Franklin County. We are not a charter school. As an early 
college high school, students are expected to complete all of 
their high school requirements and up to 60 hours of college 
credit in 4 years. Our early college studies are being 
implemented through a STEM curriculum--science, technology, 
engineering, and mathematics.
    First, I would like to thank you for the support of early 
college high schools through innovative programming. Your 
support of schools that are creative and innovative is spurring 
high school education reform in Ohio and creating global 
citizens like me.
    Attending Metro Early College High School has prepared me 
well and has been one of the wisest choices I have ever made. I 
have had the opportunity to do things that I never thought I 
could do in an environment that challenged me to maximize my 
potential.
    For example, I participate in an advisory each year at 
Metro. During advisory, my classmates and I would plan to carry 
out various service learning projects and explore fields of 
interest through career shadowing days and college visits.
    Most schools don't think that the development of me as a 
citizen who is active and responsible for making things better 
in the community is an important part of the responsibility of 
the school. That is not the case for Metro. Metro is all about 
helping me see my future in a way that causes me to notice what 
needs to change and what my role might be.
    Metro takes seriously the opportunity and exposure 
necessary for students to explore career fields in STEM. I 
learned a lot about myself and what I might like to do through 
my internships. While attending Metro, I have completed two 
internships, one of which was required and the other I chose as 
an elective--the first internship at a local glass art studio 
called Glass Axis and the other at the Franklin Park 
Conservatory's Chihuly Resource Center.
    During these internships, I discovered that I have a love 
for visual, hands-on art and that STEM thinking is an important 
part of the work that they do to create the wonderful 
exhibitions that I love. I learned skills that included 
providing services and goods to clients, helping art 
organizations to balance their finances, and upholding 
functional business.
    I have shadowed the director of visual productions at Bath 
and Body Works and a public relations specialist at a major 
local advertising design company. These experiences have taught 
me more about the diverse fields of business and art and have 
contributed to my fascination with the fields.
    At Metro, once students have completed the credits of a 
full high school curriculum, they have the opportunity to 
Gateway, which is what we call the presentation of our capacity 
to do college-level work. During my Gateway, I presented the 
habits and skills that I practiced throughout Metro classes. 
These tools prepared me to succeed in college-level classes.
    I had to provide examples of high school coursework and my 
grades to a panel of OSU, Battelle, and Metro professionals, my 
parents, and a student advocate. It was a lot of pressure, but 
it prepared me to do things like speak to you all today.
    Metro has carefully exposed me to college courses. The 
first college course that I completed was a 4-day entomology 
course taught at Ohio State's Stone Lab on Lake Erie. Every 
student in this class was from Metro, and although the class 
was short, it provided enough challenge to motivate me to step 
up my performance.
    Because Metro is an early college high school and is a 
public option, Metro students do not need to be concerned about 
financial issues when taking courses at Ohio State. The 
tuition, books, and fees are included in the operating budget 
for our school and are not a burden on me as a student. It is 
really a scholarship opportunity for students. This allows 
students and their families to focus on their coursework rather 
than worry about having funding for their classes.
    When I attend college next year, I will have a significant 
amount of coursework completed with success. I think that these 
opportunities are beneficial to all students because it enables 
us to achieve.
    Attending Metro Early College High School has shown me that 
it is my responsibility to become a peer model to underclassmen 
who are looking forward to succeeding in the same way that I 
am. Because I am a member of Metro's first graduating class, I 
have gotten the opportunity to experience so much, and often, 
Metro gives me the opportunity to share my experiences with 
other students and with you.
    Participating in an early college program is especially 
beneficial for me, because I am given the chance to explore 
different fields of interest before I even start college as a 
freshman. Last quarter, I took an economics course for my 
intended major of marketing. From taking this course, I found 
that I have a great interest in the analysis of statistical 
data.
    I have always struggled with organization, study habits, 
and time management, and as an early college high school, Metro 
did its job to prepare me by providing me with skills and 
effective habits to overcome my learning weaknesses in a 
supportive environment. Adults call this 21st century skills, 
but I think they are survival skills for my future.
    Classes are about 20 to 1 at Metro, and it is easy to talk 
to your instructor about any questions that you have. Also, 
Metro provides support through advisories, counselors, and 
tutors to help students gain confidence and a positive outlook 
on college.
    Attending Metro has been a very beneficial, challenging, 
and fun experience for my classmates and me. Next year, I plan 
to attend The Ohio State University as a full-time student, and 
I am a Morrill Scholarship recipient. I look forward to the 
possibility of seeing more students like me who have had the 
opportunities and instruction that Metro has provided.
    I encourage the committee to consider continuing its 
investment in early college high schools as you review and make 
decisions on the reauthorization of legislation. There are more 
students like me who need this kind of environment, training, 
and encouragement.
    Thank you for your time.
    Senator Brown. Thank you. Thank you, Crystal.
    [Applause.]
    Crystal, thank you.
    I want to introduce Moira Lenehan, who grew up in Akron, is 
on my Washington staff, does education issues, and has been on 
Capitol Hill for a number of years. She joined us about a year 
ago. This is Moira sitting next to me.
    Mr. Caldwell.
    Thank you again, Crystal.

  STATEMENT OF BOB CALDWELL, SUPERINTENDENT, WOLF CREEK LOCAL 
                 SCHOOL DISTRICT, WATERFORD, OH

    Mr. Caldwell. Thank you for inviting me, Senator Brown, to 
be before you today. I care deeply about public education.
    As previously stated, my name is Bob Caldwell, and I am 
superintendent of Wolf Creek Local Schools in Washington 
County, OH.
    While I have been in education for 34 years, only 14 of 
those have been as superintendent of Wolf Creek. However, all 
34 have been in rural Appalachian Ohio, called the 
southeastern.
    Wolf Creek Local School has a total population, K-12, of 
640 students. This is about 50 in each grade. Fifty-nine 
percent of our teachers have 10 or more years of experience and 
make an average of a little over $46,000 a year. This, compared 
to the Ohio average with 10 or more years experience of $56,000 
and the overall State average income of being about $68,000.
    A strong argument can be made, as a result of this, that 
rural and Appalachian school teachers become embedded in their 
communities and do not relocate for career or financial 
reasons.
    Wolf Creek, while attaining an ``excellent'' rating the 
past 2 years on the report card and having a 98 percent 
graduation rate, concluded that we needed help. Now let me 
explain what I mean by that.
    The OACHE, which is called the Ohio Appalachian Center for 
Higher Education, was established by the General Assembly in 
1993, with the mission of increasing educational attainment in 
the then 29 counties of Appalachian Ohio. The OACHE pursues its 
mission primarily by awarding 2-year access project grants on a 
competitive basis to K-12 schools in the region.
    These access projects implement activities that encourage 
all students to consider college by helping them overcome 
barriers to post-secondary education. The origin of OACHE was a 
suggestion by former famed restaurateur and then member of the 
Iowa Board of Regents Bob Evans to the college presidents that 
they address the low college going rate in his native 
Appalachian Ohio.
    Acting on his suggestion, the Ohio Board of Regents funded 
the study--this study was completed in 1992--that has become 
the definitive work of why Appalachians do not go to college. 
The study, titled ``Appalachian Access and Success,'' 
instigated the OACHE's creation.
    Access and Success found that although 80 percent of high 
school students surveyed wanted to attend college, only about 
30 percent actually attended. This rate fell way below the 
rates of Ohio, 41 percent, and the entire United States that 
you referenced earlier, 62 percent.
    The study further found low self-esteem, poverty, and lack 
of information to be the strongest barriers to college 
participation. To address this serious problem, in 1993, the 
Ohio General Assembly established the OACHE and charged the new 
consortium with increasing the college going rate in 
Appalachian Ohio.
    Another analogy would be the Morrill Scholarship, which was 
referenced earlier--that Crystal actually received--at The Ohio 
State University is named in honor of Senator Justin Morrill, 
author of the 1862 Morrill Act that facilitated access to 
higher education for students previously underrepresented at 
America's colleges.
    The Office of Minority Affairs at Ohio State offers the 
programs to promote diversity, multiculturalism, and 
leadership. Among the criteria to be considered include 
applicant status as a potential first-generation college 
student; applicant's racial, ethnic, tribal background; 
socioeconomic factors; and Ohio county of residence.
    For the purpose of the scholarship, the Morrill 
Scholarship, people living in the 31-county Appalachian region 
are considered Appalachian Americans. Why are Appalachian 
Americans considered to be a minority for the purpose of this 
scholarship? Perhaps it is because many rural Americans are 
expected to follow their parents' footsteps. For instance, blue 
collar work is encouraged in lieu of seeking higher education.
    Certainly, Appalachians have a history of having a strong 
sense of community, and they frown on boasting, and college 
graduates simply seems to be boasting. Compared with national 
averages, one in five Appalachian children live in poverty. 
Nearly 30 percent of third graders in Appalachia either have 
not seen a dentist in the past year or have never had a dental 
exam. This, according to Goins, Spencer, Krummel in a 2003-4 
study.
    In 1999, Waterford High School, which is a high school in 
Wolf Creek Local Schools, applied for and received the OACHE 
grant. The grant provided numerous opportunities for our 
students. The grant paid for individual and college visits to 
colleges and other activities, including attending of a 
Cleveland Cavaliers game.
    Currently, at Waterford High School in the halls are 
posters, 62 posters representing 62 different colleges made by 
the 62 students enrolled in Career Search for Seniors class, 
which came from the idea generated from the OACHE grant. We 
have grown from 30 percent attending college in 1999 to 80 
percent of our graduating class in 2008 that are attending 
college. Waterford, as a result of this success, no longer 
receives the OACHE grant.
    The Battelle for Kids Ohio Appalachian Collaborative may 
just be the answer to our problem as I referenced through this. 
This collaboration joins the average daily membership of 21 
rural Ohio school districts, which serve approximately 35,000 
students.
    It is our belief that this collaboration will allow us to 
compete against Cleveland, Columbus, Cincinnati for State, 
Federal, and private grants in a way that, individually, none 
of the 21 schools simply could. We, members of the 
collaborative effort, hope to increase the number of Advanced 
Placement courses offered and students who score at least a 
three.
    We hope to attain a 100 percent graduation rate. Yes, Wolf 
Creek is at 98 percent graduation rate, and we are proud of 
that. However, if you are in the 2 percent--and at Wolf Creek, 
that is one or two students--that did not graduate, then we 
still have a problem.
    I believe that all the students in the now 31-county 
Appalachian region deserve access to an education that 
maximizes their potential for opportunity and accomplishment. 
``It is a moral, global, and economic imperative to enable and 
empower these historically underserved students, thereby 
enriching their environments and enhancing their quality of 
life.'' That was a quote from Battelle for Kids.
    Districts in The Battelle for Kids Ohio Appalachian 
Collaborative may be small and separated by many miles, but 
they know the fastest way to innovate and improve is to learn. 
Bolstered by good faith and shared responsibilities by everyone 
involved, this group of districts in this collaborative have an 
opportunity to exhibit transformational leadership to produce 
dramatic improvements in student outcomes.
    The ultimate goal is to: (1) expand student opportunities; 
(2) two, enhance teacher quality and instruction; (3) transform 
leadership; (4) understand and use assessments and data; and 
(5) engage in communities.
    We hope to recognize and reward effective teaching and 
leadership by using specific research-based strategies, 
including teacher-level value-added analysis in grades 3 
through 12, formulate assessment practices, results-focused 
collaboration within and across districts, and community 
engagement.
    I am proud of the progress that Wolf Creek and other 
districts have made, but as I referenced earlier, you are happy 
if you are in the 98 percent that graduate, but not so joyful 
if you are the 2 percent that did not. According to Robert 
Frost, we have miles to go before we sleep.
    Thank you.
    [The prepared statement of Mr. Caldwell follows:]
                   Prepared Statement of Bob Caldwell
                                Summary*
    There are school children in Ohio's rural Appalachian region 
receiving a $7,056 education, while the State average (not the most 
expensive) per pupil expenditure is $9,216. The $2,250 shortfall 
translates into $45,000 less annually per classroom of 20 students, or 
over $2,250,000 less annually for a school district with 1,000 
students.
---------------------------------------------------------------------------
    * My testimony uses the data from this summary to express its need 
for the Battelle for Kids Collaboration.
---------------------------------------------------------------------------
    There are school districts in Ohio's rural Appalachian region with 
local property valuation per pupil as low as $38,229, while the State 
average (not the highest) is $134,211. These numbers illustrate the 
lack of ability for some local communities to raise revenue to support 
education for their children.
                                 ______
                                 
    Senator Brown, members of the committee, thank you for inviting me 
to appear before you today. I know that you care deeply about the 
future of Public Education.
    My name is Bob Caldwell and I am the Superintendent of Wolf Creek 
Local Schools in Washington County, OH.
    While I have been in education for 34 years, only 14 have been as 
Superintendent of Wolf Creek. However, all 34 have been in the 
Appalachian Region of southern Ohio.
    Few issues do I carry the passion that I have toward helping the 
young people of my home region.
    Wolf Creek Local School has a total school population (K-12) of 640 
students. This is an average of 50 in each grade. Fifty-nine percent of 
our teachers have 10 or more years of experience and make on the 
average a little less than $46,000. This compared to the Ohio average 
with 10 or more years experience of $56,000, while the State's overall 
income was just over $68,000.
    A strong argument can be made that Rural and Appalachian school 
teachers become embedded in their communities and do not relocate for 
career or financial reasons.
    This testimony is not just about the teachers commitment to the 
students. It is about the students, the people who will soon be sitting 
in our respective chairs.
    Wolf Creek while attaining an ``excellent'' rating the past 2 years 
on the report card and have a 98 percent graduation rate concluded they 
needed help!
    The Battelle for Kids Ohio Appalachian Collaborative may just be 
the answer to our problem. This collaboration joins the average daily 
membership of 21 rural Ohio school districts, which serve approximately 
35,000 students.
    It is our belief that this collaboration will allow us to compete 
against Cleveland, Columbus, and Cincinnati for State, Federal, and 
private grants in a way that individually we simply could not.
    We, members of the collaborative effort, hope to increase the 
number of Advanced Placement courses offered and students who score at 
least a three. We hope to attain a 100 percent graduation rate. Yes, 
Wolf Creek is at 98 percent graduation rate and we are proud of that, 
however, what if you are in the 2 percent (one or two students for Wolf 
Creek) that did not graduate.
    It has been quoted that Ohio has the 4th largest rural school 
enrollment in the country and one of every two Ohio districts is rural.
    The Battelle for Kids Ohio Appalachian Collaborative is bolstered 
by good faith and shared responsibilities by everyone involved. This 
group of districts is uniquely challenged by a shrinking tax base, 
difficulty in recruiting teachers but welcomes the mission of 
accelerating college and career readiness of every student.
    We believe that six major areas will be our focus: (1) expand 
student opportunities; (2) enhance teacher quality and instruction; (3) 
transform leadership; (4) understand and use assessments and data; (5) 
engage communities; and (6) recognize and reward effective teaching and 
leadership.

    Senator Brown. Thank you.
    [Applause.]
    Senator Brown. Thank you, Mr. Caldwell.
    Ms. Silas-Butler.

   STATEMENT OF JACQUELINE A. SILAS-BUTLER, ESQ., EXECUTIVE 
               DIRECTOR, PROJECT GRAD, AKRON, OH

    Ms. Silas-Butler. Good afternoon. My name is Jacqueline 
Silas-Butler, and I thank you, Senator Brown, for inviting us 
here today for this very important topic.
    On behalf of the national Project GRAD network, let me 
begin by expressing my sincere appreciation and gratitude to 
Senator Sherrod Brown and his colleagues for authorizing 
Project GRAD as a Federal program in the Higher Education Act.
    Additionally, thank you for inviting Project GRAD Akron to 
represent our organization, as I share about the important work 
that we do throughout the United States to assist students as 
they successfully prepare for college and career and become 
lifelong productive members of our country.
    Project GRAD is a national reform program which initially 
began in 1993 in Houston, TX, in one feeder pattern. Today, we 
have 13 sites in 10 States, serving 213 schools and more than 
134,000 students, their families, and teachers. We work in 
collaboration with local school districts to ensure academic 
achievement from pre-kindergarten to 12th grade and successful 
completion of high school and college for economically 
disadvantaged students.
    Project GRAD is a unique model with an ambitious mission of 

increasing the high school and college graduation rates of the 
students we serve, who typically come from some of the lowest-
performing schools. Ninety-two percent of Project GRAD USA's 
students are African-American or Hispanic, and 83 percent of 
the 
students served are low-income. Most of the students we serve 
are the first in their family to consider college as a viable 
option.
    Project GRAD is the only educational reform effort that has 
been cited as a promising whole school reform leading to 
college success by many national organizations, including 
Building Engineering and Science Talent, the Comprehensive 
School Reform Quality Center, Business-Higher Education Forum, 
American Youth Policy Forum, and the U.S. Government 
Accountability Office.
    In the longest-served group of schools, Project GRAD 
students are completing college at a rate 92 percent above the 
national average for students from similar backgrounds. 
Nationally, Project GRAD has offered college scholarships to 
more than 9,600 students, worth over $40 million, and has 
nearly 13,000 high school students in the scholarship pipeline, 
making it one of the country's largest college access 
organizations for low-income students.
    Nationally, Project GRAD's scholarships have sent high 
school graduates to more than 100 institutions of higher 
education, including The Ohio State University, The University 
of Akron, Kent State University, The University of Cincinnati, 
Lorain Community College, Cornell, Morehouse, Harvard, Emory, 
Rice, Spelman, Georgetown, Texas, Virginia, Howard, Princeton, 
and Yale.
    The uniqueness of our model centers around our belief that 
Graduation Really Achieves Dreams--GRAD--and that we work with 
all students in any school we serve. Our model includes the 
following areas: community partnerships/engagement, academic 
support, student support and parental engagement, college 
access and retention, and scholarship.
    As the executive director of Project GRAD Akron, I can 
personally attest that we are seeing tremendous gains for the 
students we serve. The success we have experienced is due in 
great part to the collaboration we have with the Akron Public 
Schools, local universities, as well as having the community 
engaged in our efforts.
    Since 2002, our reading and math scores have increased, our 
schools are making a year or more growth in overall performance 
and have outpaced similar schools in the district, and our high 
school was the only high school in the district that met the 
Federal benchmark in reading and math AYP, adequate yearly 
progress.
    Since 2006, Project GRAD Akron has awarded nearly $600,000 
in scholarships to Buchtel High School's graduates, and two 
students were the recipients of the prestigious Gates 
Millennium Scholarship. In May, we will award $228,000 in 
additional scholarships to the class of 2010.
    I would like to close my testimony by presenting some of 
the evaluation results that demonstrate that Project GRAD is a 
success. Dr. Eric Bettinger of Stanford University conducted 
studies in 2007 and 2009 at Project GRAD sites in Ohio. His 
results included a number of positive findings.
    Graduation rates have improved across all Project GRAD high 
schools in Ohio since the inception of Project GRAD. Fourth 
grade math scores have increased in Project GRAD schools 
relative to comparison schools. Student disciplinary rates have 
fallen in Project GRAD schools relative to comparison schools. 
Student truancy rates have fallen in Project GRAD schools 
relative to comparison schools. Teacher attendance has also 
improved relative to comparison schools.
    Thank you very much for the opportunity to present my 
testimony in support of the reauthorization of ESEA. Thank you.
    [The prepared statement of Ms. Silas-Butler follows:]
         Prepared Statement of Jacqueline A. Silas-Butler, Esq.
    On behalf of the national Project GRAD network, let me begin by 
expressing my sincere appreciation and gratitude to Senator Sherrod 
Brown and his colleagues for authorizing Project GRAD as a Federal 
program in the Higher Education Act (HEA). Additionally, thank you for 
inviting Project GRAD Akron to represent our organization as I share 
about the important work that we do throughout the United States to 
assist students as they successfully prepare for college and career and 
become lifelong productive members of our country.
    Project GRAD is a national reform model which initially began in 
1993 in Houston, Texas in one feeder pattern. Today, we have 13 sites 
in 10 States serving 213 schools and more than 134,000 students, their 
families, and teachers. We work in collaboration with local school 
districts to ensure academic achievement from Pre-K-12, and successful 
completion of high school and college for economically disadvantaged 
students.
    Project GRAD is a unique model with an ambitious mission of 
increasing the high school and college graduation rates of the students 
we serve, who typically come from some of the lowest performing 
schools. Ninety-two percent of PG USA's students are African-American 
or Hispanic and eighty-three percent of the students served are low-
income. Most of the students we serve are the first in their family to 
consider college as a viable option.
    Project GRAD is the only education reform effort that has been 
cited as a promising whole school reform leading to college success by 
many national organizations including Building Engineering and Science 
Talent, the Comprehensive School Reform Quality Center, Business-Higher 
Education Forum, American Youth Policy Forum, and the U.S. Government 
Accountability Office (GAO).
    In the longest-served group of schools, Project GRAD students are 
completing college at a rate 92 percent above the national average for 
students from similar backgrounds. Nationally, Project GRAD has already 
offered college scholarships to more than 9,600 students, worth over 
$40 million, and has nearly 13,000 high school students in the 
scholarship pipeline, making it one of the country's largest college 
access organizations for low-income students. Nationally, Project 
GRAD's scholarships have sent high school graduates to more than 100 
institutions of higher education, including, The Ohio State University, 
The University of Akron, Kent State University, The University of 
Cincinnati, Lorain Community College, Cornell, Morehouse, Harvard, 
Emory, Rice, Spelman, Georgetown, Texas, Virginia, Howard, Princeton, 
and Yale.
    The uniqueness of our model centers around our belief that 
Graduation Really Achieves Dreams (GRAD) and that we work with all 
students in any school we serve. Our model includes the following 
areas: Community Partnerships/Engagement, Academic Support, Student 
Support and Parent Engagement, College Access and Retention, and 
Scholarship.
    As the Executive Director of Project GRAD Akron, I can personally 
attest that we are seeing tremendous gains for the students we serve. 
The success we have experienced is due in great part to the 
collaboration we have with the Akron Public Schools, local 
universities, as well as engaging the community in our efforts. Since 
2002, our reading and math scores have increased, our schools are 
making a year or more growth in overall performance and have outpaced 
similar schools in the district, and our high school was the only high 
school in the district that met the Federal benchmark in reading and 
math (AYP--Adequate Yearly Progress). Since 2006, Project GRAD Akron 
has awarded nearly $600,000 in scholarships to Buchtel High School's 
graduates and two students were the recipients of the prestigious Gates 
Millennium Scholarship. In May, we will award $228,000 in additional 
scholarships to the Class of 2010.
    I would like to close my testimony by presenting some of the 
evaluation results that demonstrate Project GRAD's success. Dr. Eric 
Bettinger of Stanford University conducted studies in 2007 and 2009 at 
Project GRAD sites in Ohio. His results included a number of positive 
findings:

    <bullet> Graduation rates have improved across all Project GRAD 
high schools in Ohio since the inception of Project GRAD.
    <bullet> Fourth grade math scores have increased in Project GRAD 
schools relative to comparison schools.
    <bullet> Student disciplinary rates have fallen in Project GRAD 
schools relative to comparison schools.
    <bullet> Student truancy has fallen in Project GRAD schools 
relative to comparison schools.
    <bullet> Teacher attendance has also improved relative to 
comparison schools.

    Thank you very much for the opportunity to present my testimony in 
support of the reauthorization of ESEA.
                                 ______
                                 
                               Attachment
          Project GRAD USA--Graduation Really Achieves Dreams
                    The Pre-K-16 Project GRAD Model
    Project GRAD (GRAD) believes that, with the proper support, all 
students in high-need, low-income schools can graduate from high school 
and successfully complete a college degree.
                        grad's structural model
    GRAD's school reform model:

    (1) works in feeder patterns to ensure that the maximum number of 
Pre-K through 12th grade students receive academic support and college 
access knowledge,
    (2) establishes a local 501(c)(3) that mobilizes community 
resources and works in close partnership with, but external to, each 
school district,
    (3) works with existing assets in each school to maintain a cost-
effective, scalable, and replicable system,
    (4) integrates the services of all organizations in a school that 
are working to improve student academic achievement and motivation,
    (5) ensures program quality and provides consulting services 
through the national office, and
    (6) works to ensure that students graduate from college.

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                      grad's management structure
    GRAD USA has a three-tiered management structure that ensures 
program integrity, accountability, and performance measurement at the 
national, district, and school level. The national GRAD office has 
responsibility for quality control, technical assistance, professional 
development, knowledge management, and policy. The district 
superintendent and leaders collaborate with GRAD USA and the local site 
to implement the model and allow State test results on student 
achievement to be submitted to the national GRAD office. Local GRAD 
sites are responsible for on-the-ground implementation and oversight in 
close partnership with GRAD USA.
                  grad's programmatic model: pre-k-16
    GRAD's model ensures student success by creating a college-going 
culture. The following elements are critical:

    <bullet> Academic Support
    <bullet> School Climate
    <bullet> Parent & Community Engagement
    <bullet> School-based Social Services
    <bullet> College Readiness Initiative

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                       academic support: pre-k-7
    GRAD's core Pre-K-7 model improves student achievement through a 
support system that enhances standards-based literacy and mathematics 
programs. The implementation of GRAD literacy and mathematics in a 
school or district does not require replacement of an existing 
curriculum, unless that curriculum is not producing acceptable student 
progress. GRAD provides academic support to better prepare and develop 
GRAD teachers' abilities to implement the existing curriculum or 
program through curriculum alignment, professional learning, data-
driven instruction, on-the-ground coaching, and resources.
    GRAD USA content specialists gather both qualitative and 
quantitative data about the reading and mathematics programs, review 
State test data, and identify perceived gaps or needs. Both the reading 
and mathematics curricula are analyzed to determine how well they align 
with State standards, State tests, and district benchmarks. The content 
specialists and local GRAD site meet with district administrators and 
teachers to agree on student achievement gaps and develop an action 
plan. GRAD USA requires in-school coaches who confer with teachers to 
establish goals, conduct classroom observations, take notes, provide 
feedback, and develop strategies for improving instruction. During 
grade level/departmental meetings, coaches provide embedded ``just-in-
time'' professional development. GRAD's National Coach conducts regular 
visits to observe and provide support while modeling best practices and 
brokers additional professional development from district and/or 
university experts.
    GRAD Literacy Coaches assist teachers in helping students develop 
reading fluency, comprehension skills, composition skills and 
demonstrate how teachers can help students develop critical thinking 
and problem-solving skills. GRAD's goals for literacy include 
proficiency on State high-stakes tests; a research-based reading 
program; and a well-implemented, research-based composition program. 
The GRAD philosophy of teaching and learning for mathematics focuses on 
raising expectations about learning to include higher order 
understanding and application of concepts at all grade levels. Based on 
the National Council of Teachers of Mathematics (NCTM) Principles and 
Standards, Project GRAD Mathematics uses carefully selected 
instructional activities and developmentally appropriate manipulatives 
to foster an understanding of concepts and processes that stimulate 
higher order thinking skills. Teachers are provided with the tools and 
support necessary for transforming their classrooms into environments 
characterized by student engagement in mathematical reasoning, non-
routine problem-solving, and communication.
                        school climate: pre-k-7
    GRAD USA's approach to school climate ensures that the school has a 
safe and personalized environment where students feel secure and valued 
and instruction is student-centered. When the school climate program is 
determined to be ineffective, GRAD USA provides a program such as Safe 
& Effective Schools that is based on distributed leadership and 
supports a personalized, caring learning environment that leads to more 
effective instruction resulting in increased student academic 
achievement.
                 parent & community engagement: pre-k-7
    GRAD's theory of change is rooted in the belief that schools 
operate in the context of communities and key stakeholders--especially 
parents--must take ownership of school reform. Through GRAD USA's 
Parent & Community Engagement (PCE) model, a locally rooted, focused 
constituency of parents and community leaders advocate on behalf of 
low-income students to achieve lasting school reform, bring about 
change in students' lives, and inspire hope. PCE was developed with the 
understanding that parents and guardians play a critical role in 
ensuring academic success for students, and that schools are more than 
educational institutions; they are centers for community life. Key PCE 
activities include GRAD's Walk for Success\SM\, Walk for Success Rally, 
Parent University, and Parent Conference.
                       social services: pre-k-12
    Local GRAD sites partner with campus-based social service 
organizations or implement GRAD's Campus Family Support (CFS) to 
provide interventions for student and family needs. The Pre-K-12 model 
includes a campus manager who oversees case load management and a 
family support team. The Campus Manager is the initial point of contact 
for all community agencies, tutors, mentors, and groups offering 
support services for the school. GRAD's Campus Manager provides 
intensive, ongoing services (e.g., guidance, tutoring, and access to 
enrichment activities) to a predetermined number of students at each 
school. If necessary, the Campus Manager makes referrals to outside 
agencies. If there is no existing relationship with outside agencies, 
the Campus Manager identifies those agencies and ensures that they have 
the capability and resources to meet student needs. CFS staff provide a 
``safety net'' for students through counseling, mentoring, and 
referrals.
        grad's college readiness and retention initiative: 8-16
    The six elements of GRAD's College Readiness and Retention 
Initiative include the following:

    (1) Academic Preparation and High Expectations. GRAD requires 
partner districts to provide a high quality, strictly aligned academic 
curriculum for grades Pre-K-12.
    (2) 8th Grade Readiness. To prepare 8th grade students for the 
rigor of a college preparatory curriculum in high school, GRAD 
leverages current strategies and implements enhanced ones, so that all 
students leave 8th grade with personalized academic preparation and a 
college and career plan.
    (3) 9th Grade Transition and Readiness. GRAD ensures a base of 
success for students advancing to and in 9th grade through a solid 
focus on preparation for academic rigor. Students' 6-Year Scholar Plans 
are revisited and adjusted as needed to ensure that students and their 
parents are on target to achieve college readiness.
    (4) The College Preparatory Program in Grades 10 through 12. GRAD's 
10th through 12th grade academic readiness strategies ensure that high 
school students successfully complete the college preparatory 
curriculum and graduate from high school ready for college (inclusive 
of mathematics, literacy, and science). GRAD's non-negotiable 
requirement with the partner district ensures a default college 
preparatory curriculum aligned with State and national standards and 
grade-to-grade.
    (5) Educator Capacity Building. Educator capacity is built through 
a school transformation initiative, professional development, and 
school-based academic coaches.
    (6) Systems Integration. Working as a systems integrator, GRAD 
utilizes existing partnerships and seeks new opportunities to broker 
research-based, proven existing programs and initiatives.
Summer Academic and College Access Programs
    GRAD provides Summer Bridge (8th to 9th transition program) and 
Summer Institute (9th to 10th and 10th to 11th transition programs) in 
partnership with local colleges or universities to address remediation/
acceleration and enrichment needs and help build a college-going 
culture, inspiring students to graduate from high school and advance to 
college. GRAD hosts summer programs on college campuses, hosts College 
Access Forums, and conducts college tours to further connect students 
to post-secondary institutions.
College Access & Career Expectations
    The College Readiness Team, led by the College Access Coordinator, 
provides targeted college access support, career planning and 
mentorship, and peer leadership opportunities integrated into every 
aspect of a student's high school career. This support strengthens the 
connection between post-secondary education and a student's desired 
career that is planned and tracked through a student's 6-Year Scholar 
Plan.
Student and Parent Constituency Influence
    To generate and sustain a college-bound culture that systematically 
targets every aspect of a student's high school career, the team 
engages students, parents, faculty, and the greater community in 
generating a college-bound culture. GRAD hosts an annual Walk for 
Success, a door-to-door campaign visiting the homes of families of 8th 
and 9th grade students to formalize the GRAD Scholarship Contract and 
serve as a constituency development tool to support academic 
achievement and develop a college-going culture. GRAD also leverages 
its success to develop a student-driven peer constituency in support of 
college access and graduation using campus-based, student-led peer 
leadership groups.
Affordability
    The promise of the GRAD Scholarship is the cornerstone of GRAD's 
college access efforts and influences the belief in both students and 
parents that college is a possibility. The $4,000 ($1,000 yearly) GRAD 
Scholarship serves as a motivation for students and is a source 
impacting affordability by leveraging other scholarship funds and 
financial aid. GRAD's College Access Coordinator individually monitors 
and counsels all students to ensure that they are prepared 
academically, and on track to receive the GRAD Scholarship and enter 
college as well as aid students in completing other scholarship and 
financial aid forms.
College Persistence
    CRI targets the critical transition from high school to college 
through key support and retention strategies for GRAD Scholars in their 
freshman year of college. After the first year of college, GRAD 
leverages local site-based College Managers who provide emotional, 
social, and financial aid support throughout the students' college 
years with a goal of ensuring college graduation.

    [Applause.]
    Senator Brown. Thank you, Ms. Silas-Butler.
    Ms. Phillips-Schwartz, thank you for joining us.

 STATEMENT OF KRISTI PHILLIPS-SCHWARTZ, DIRECTOR OF EDUCATION 
   INITIATIVES, CINCINNATI BUSINESS COMMITTEE, CINCINNATI, OH

    Ms. Phillips-Schwartz. Thank you.
    I am Kristi Phillips-Schwartz, and I am with the Cincinnati 
Business Committee. Thank you for having me today. Thank you 
for hosting this here at Metro.
    Cincinnati and northern Kentucky have, like many 
communities, a diverse array of education initiatives focused 
on improving the lives of and, more specifically, educational 
outcomes of children and youth. These resources are supported 
by a wide array of public and private institutions who share a 
common interest in the success of youth to lead to a more 
vibrant community and, speaking as a representative of the 
business community, creating a more educated workforce.
    Unfortunately, we have not seen the dramatic improvements 
we would desire in the education system. We know this, in part, 
because of key components of No Child Left Behind, such as 
requiring every child to be tested. These have helped to 
provide a better understanding of how every child is or is not 
being served.
    When we looked at this data in our region, we came to the 
realization about 4 years ago that we needed to focus the time, 
energy, and talent of the entire community on specific 
strategies in a very coordinated manner to achieve the 
improvements that students and parents deserve. We needed to 
focus our work starting at birth through some form of college, 
cradle to career as we call it. And as a result, the community 
created something called the Strive Partnership.
    The Strive Partnership looked to bring leaders from the 
education, business, nonprofit, philanthropic, and civic 
sectors to create a common vision for education in our 
community and to set some concrete goals for improvement.
    We set five ambitions goals. Every child will be prepared 
for school, supported inside and outside of school, succeed 
academically, enroll in some form of college, and graduate and 
enter a career. We selected concrete measures related to each 
goal and put them in a report card published annually, 
capturing trends and guiding collective decisionmaking around 
where our community needs to focus strategies critical for 
improving future student outcomes.
    Many of the strategies being pursued in the Strive 
Partnership are consistent with the direction that President 
Obama and Education Secretary Duncan are pursuing through 
policy and Race to the Top funding, including the development 
of data-driven action plans and continuous improvement 
strategies to enhance social services and academic instruction; 
better connecting health and social services to schools through 
our community learning centers; placing significant emphasis on 
improving teacher quality and effectiveness; and promoting the 
development of a portfolio of high-performing schools that 
turnaround our lowest-achieving schools.
    Business leaders in Cincinnati have been engaged in and 
supportive of the abovementioned strategies being pursued by 
the Strive Partnership on various levels. A recent example of 
how the Strive Partnership has helped to bring community 
leaders together to unite and advocate behind a common agenda 
has been in the area of improving teacher quality.
    Acknowledging that teacher quality matters more than any 
other school factor in student success or failure, Strive 
partners--including the Cincinnati Business Committee, Haile/
U.S. Bank Foundation, Greater Cincinnati Foundation, and 
JPMorgan Chase--helped to commission a comprehensive study by 
The New Teacher Project focused on improving the human capital 
system in Cincinnati Public Schools.
    This study included a comprehensive survey of teachers and 
principals and focused on teacher hiring, placement, 
evaluation, professional development, compensation, retention, 
dismissal, and leadership and working conditions. With the 
support of the Cincinnati Public School Board, the 
superintendent, and the Cincinnati Federation of Teachers, the 
recommendations from this report are now a focal point of many 
reforms being considered in the district.
    The Strive Partnership has played a critical role in 
bringing the broader community together to unite behind the 
specific action items in the report card to improve teaching 
and learning within CPS.
    Some of these recommendations include strengthening teacher 
and school effectiveness by adopting an evaluation system based 
on results, as well as practice linked to a system that rewards 
excellent teachers, encourages innovation, and ties teacher 
compensation, development, and advancement to student 
achievement; providing greater flexibility to address 
chronically low-performing schools through alternative 
structures, school redesigns, adaptable staffing, and new 
school options for parents and their children; and increasing 
the supply of the best teachers in the high-need schools.
    This example highlights the important role that 
organizations like Strive can play in connecting leaders from 
all levels and sectors across the community around a common 
education reform effort to drive improved educational 
opportunities in our community.
    As you work toward renewing the Elementary and Secondary 
Education Act, it will be important to talk with leaders in 
organizations like the Strive Partnership to understand how 
they are working effectively with groups of community leaders 
to drive education reform efforts on the ground. As with any 
new organization, there are many challenges to overcome, but 
the goal of providing every child with access to high-quality 
educational opportunities can only be achieved through a 
concerted, community-wide effort.
    Thank you.
    [Applause.]
    Senator Brown. Thank you, Ms. Phillips-Schwartz, very much.
    Mr. Jackson.

STATEMENT OF STEVEN JACKSON, SENIOR VICE PRESIDENT, GREAT OAKS 
  CAREER CAMPUSES, GREAT OAKS DISTRICT OFFICE, CINCINNATI, OH

    Mr. Jackson. Good afternoon. Again, I am Steve Jackson, of 
the Great Oaks Institute of Technology.
    I would like to thank Senator Brown for the opportunity to 
discuss the success that our district has had in preparing 
students for careers and college.
    I would also like to thank our hosts at Metro High School, 
both for making this hearing possible and for the work you do 
on behalf of Ohio students.
    Let me tell you a bit about Great Oaks. We are a public 
school district providing career and technical education 
programs for students in 36 school districts in southwestern 
Ohio. As one of the largest such districts in the United 
States, we serve urban, rural, and suburban students with more 
than 40 different career and technical programs on our four 
campuses.
    Each year, more than 12,000 high school students enroll in 
our workforce development and career foundation education 
programs. We also coordinate career education services for 
about 120,000 K through 12 students and provide career programs 
and other services for more than 50,000 adults annually.
    Students come to us for a variety of reasons. Some are 
focused on their future and want to begin studying a field that 
interests them. Others have not been successful in their 
present high school and want a fresh start. Some know that they 
learn better in a hands-on, focused setting. Some of our 
students are among the best in their class academically and see 
that Great Oaks offers them new challenges and opportunities.
    Great Oaks was formed in the early 1970s to provide career 
and technical programs for the region. This was done so that, 
together, school districts could offer their students highly 
specialized programs that they didn't have space or funding to 
provide by themselves. Over the years, our programs have 
changed as the community's workforce needs have changed. 
Typing, keypunch, and data entry classes have given way to 
biotechnology, robotics, and digital and interactive media 
programs.
    While in school, it is important that our students gain 
real-world experience. Coops, internships, and apprenticeships 
give Great Oaks students the chance to work side-by-side with 
professionals in the field. Those opportunities can give them 
an advantage when they graduate also. For example, a joint 
project with the Independent Electrical Contractors of Greater 
Cincinnati allows students to complete the first 2 years of a 
4-year electrician apprenticeship by the time they finish high 
school.
    Students earn industry credentials and certifications as 
they complete Great Oaks programs. A high school student can 
graduate with a practical nursing license or EMT certification. 
A student could be certified as a professional firefighter, 
dental assistant, heating and air conditioning technician, 
welder, or animal care technician. These certifications and 
credentials validate the preparation their education provided 
for them to begin a high-paying, in-demand career immediately.
    If all we did for our students was to give them a solid 
foundation for a career, we would be considered successful. A 
year after leaving us, about 92 percent of our graduates are 
working in their career field, continuing their education, or 
are in the military.
    But the 21st century demands that students be prepared for 
both careers and college. To that end, one improvement in 
career and technical education is the increased emphasis on 
more rigorous, integrated academics. General math and science 
classes have evolved into advanced algebra, calculus, 
microbiology, and anatomy. Competencies are aligned with the 
Ohio Department of Education standards, as well as industry 
certifications and post-secondary requirements.
    Creating this foundation of rigorous academic classes is 
the first step in preparing students for college. The next is 
to break down perceptual and financial barriers that our 
students may face. For example, many of our students arrive at 
our door not knowing how to make college a reality. We provide 
a setting in which students can achieve and one in which they 
find themselves doing college-level work while still in high 
school.
    In fact, through 172 articulation agreements with community 
colleges, 4-year universities, and other institutions, our 
students can step directly into post-secondary education having 
earned as many as 50 credit hours for the advanced work done in 
their career program.
    Students also have opportunities to earn college credit in 
some academic classes through a dual enrollment program. 
Curriculum is developed that meets college standards. Great 
Oaks teachers are certified as adjunct college faculty, and 
students can earn transcripted credit valid at any Ohio college 
or university.
    So our students learn that they can--and do--achieve at a 
college level. The perception they have of their future 
changes.
    But I also mentioned breaking down financial barriers. The 
college credit earned saves them and their parents thousands of 
dollars individually. In fact, last year alone, students earned 
more than 2,500 credits through the dual enrollment program. 
That represents nearly a million dollars in tuition saved, 
based on Ohio tuition rates. The result is that currently about 
50 percent of our graduates go directly to post-secondary 
education.
    We also provide second chances to those who have left high 
school. Our Gateway to Success program is a nationally 
recognized program which helps young people who have dropped 
out from high school earn a high school diploma.
    It is a unique program for two reasons. First, those 
students can actually earn a diploma from the high school 
district they originally left. Second, Gateway to Success is 
located on several area college campuses, which allows students 
to experience the college environment.
    In less than 3 years, more than 200 young adults have 
graduated through Gateway to Success. Even more noteworthy is 
that about half of these students who thought they wouldn't 
even finish high school have since gone on to college.
    Preparing students for success in careers and college can 
only happen through partnerships with others within the 
community. I mentioned the partnerships with colleges and 
universities that provide our students with articulated and 
transcripted college credit and which has helped us to develop 
a college-level academic curriculum.
    Equally important are the partnerships with business and 
industry. By working closely with our partners, we understand 
and anticipate the workforce development needs of our 
community. The programs we offer evolve as the economy evolves. 
So, based on labor market needs, we design and offer new 
programs.
    Once we begin to develop a program, we create strong links 
with leaders in that field. The career-technical curriculum is 
designed with their support and assistance, and the labs are 
equipped based on their recommendations. Each of our programs 
has an ongoing advisory council to keep our instructors firmly 
connected to the industry. Those links are valuable as our 
students look for apprenticeship, internship, and co-op 
opportunities.
    One area that has received much attention from educators 
recently is the concept of 21st century skills. Business and 
post-secondary leaders tell us that successful graduates must 
be able to work collaboratively, solve complex problems, use 
technology, and be flexible in their education. The nature of 
career and technical education is that students are already 
learning those skills in their career programs.
    Again, I appreciate the chance to give an overview of 
career and college readiness from the Great Oaks and career-
technical perspective. By anticipating emerging needs and 
partnering with others in the community to create programs and 
pathways with value, we are able to provide an education that 
creates options and opportunities for our graduates.
    Thank you for your time.
    [The prepared statement of Mr. Jackson follows:]
                  Prepared Statement of Steve Jackson
                           executive summary
About Great Oaks

    <bullet> Public school district providing career and technical 
education programs for students in 36 school districts in southwestern 
Ohio.
    <bullet> As one of the largest such districts in the United States, 
Great Oaks serves urban, rural, and suburban students with more than 40 
different career-technical programs on four campuses.
    <bullet> Each year, more than 12,000 high school students enroll in 
Great Oaks workforce development and career foundation education 
programs.
    <bullet> Great Oaks also coordinates career education services for 
about 120,000 K-12 students, and provides career programs and other 
services for more than 50,000 adults annually.

Career readiness

    <bullet> Career programs change as the job market and community 
needs change.
    <bullet> Students gain real-world experience through co-ops, 
internships, and apprenticeships that give Great Oaks students the 
chance to work side-by-side with professionals in the field.
    <bullet> Having career skills gives graduating students an 
advantage in the workplace.
    <bullet> Students earn industry credentials and certifications as 
they complete Great Oaks programs. These certifications and credentials 
validate that their education has prepared them to begin a high-paying, 
in-demand career immediately.
    <bullet> 92 percent of Great Oaks graduates are working in their 
career field, in the military, or continuing their education 1 year 
after graduation.

College readiness

    <bullet> One improvement in career and technical education is the 
increased emphasis on more rigorous, integrated academics.
    <bullet> Through 172 articulation agreements with community 
colleges, 4-year universities, and other institutions students can step 
directly into post-secondary education having earned as many as 50 
credit hours.
    <bullet> The Gateway to Success program provides a second chance 
for high school dropouts; half of those who complete the program 
continue in college.
    <bullet> Students also have opportunities to earn college credit in 
some core academic classes through a dual enrollment program. Last year 
students earned more than 2,500 credit hours, and that represents 
nearly a million dollars in tuition saved.
    <bullet> The result is that about 50 percent of our graduates go 
directly to post-secondary education.

Partnerships

    <bullet> Great Oaks works with business/industry partners to 
understand and anticipate workforce needs.
    <bullet> The career-technical curriculum is designed with business/
industry's support and assistance, and the labs are equipped based on 
their recommendations.
    <bullet> Each program has an ongoing advisory council to keep our 
instructors firmly connected to the industry. Those links are valuable, 
too, as our students look for apprenticeship, internship, and co-op 
opportunities.
                                 ______
                                 
    I am Steve Jackson, senior vice president of the Great Oaks 
Institute of Technology and Career Development. I'd like to thank 
Senator Brown for the opportunity to discuss the success that our 
district has had in preparing students for careers and college. I'd 
also like to thank our hosts at Metro High School--both for making this 
hearing possible and for the work you do on behalf of Ohio students.
    Let me tell you a bit about Great Oaks. We are a public school 
district providing career and technical education programs for students 
in 36 school districts in southwestern Ohio. As one of the largest such 
districts in the United States, we serve urban, rural, and suburban 
students with more than 40 different career and technical programs on 
four campuses. Each year, more than 12,000 high school students enroll 
in our workforce development and career foundation education programs. 
We also coordinate career education services for about 120,000 K-12 
students, and provide career programs and other services for more than 
50,000 adults annually.
    Students come to us for a variety of reasons. Some are focused on 
their future and want to begin studying a field that interests them. 
Others have not been successful in their present high school, and want 
a fresh start. Some know that they learn better in a hands-on, focused 
setting. Some of our students are among the best in their class 
academically and see that Great Oaks offers them new challenges and 
opportunities.
    Great Oaks was formed in the early 1970s to provide career and 
technical programs for the region. This was done so that together, 
school districts could offer their students highly specialized programs 
that they didn't have space or funding to provide by themselves. Over 
the years our programs have changed as the community's workforce needs 
have changed. Typing, keypunch, and data entry classes have given way 
to biotechnology, robotics, and digital and interactive media programs.
    While in school, it's important that our students gain real-world 
experience. Co-ops, internships, and apprenticeships give Great Oaks 
students the chance to work side-by-side with professionals in the 
field. Those opportunities can give them an advantage when they 
graduate, too. For example, a joint project with the Independent 
Electrical Contractors of Greater Cincinnati allows students to 
complete the first 2 years of a 4-year electrician apprenticeship by 
the time they finish high school.
    Students earn industry credentials and certifications as they 
complete Great Oaks programs. A high school student can graduate with a 
practical nursing license or EMT certification. A student can be 
certified as a professional firefighter, dental assistant, heating and 
air conditioning technician, welder, or animal care technician. These 
certifications and credentials validate the preparation their education 
provided for them to begin a high-paying, in-demand career immediately.
    If all we did for our students was to give them a solid foundation 
for a career, we would be considered successful. A year after leaving 
us, about 92 percent of our graduates are working in their career 
field, continuing their education, or are in the military.
    But the 21st century demands that students be prepared for both 
careers and college. To that end, one improvement in career and 
technical education is the increased emphasis on more rigorous, 
integrated academics. General math and science classes have evolved 
into advanced algebra, calculus, microbiology, and anatomy. 
Competencies are aligned with the Ohio Department of Education 
standards as well as industry certifications and post-secondary 
requirements.
    Creating this foundation of rigorous academic classes is the first 
step in preparing students for college. The next is to break down 
perceptual and financial barriers that our students may face. For 
example, many of our students arrive at our door not knowing how to 
make college a reality. We provide a setting in which students can 
achieve and one in which they find themselves doing college-level work 
while still in high school. In fact, through 172 articulation 
agreements with community colleges, 4-year universities, and other 
institutions our students can step directly into post-secondary 
education having earned as many as 50 credit hours for the advanced 
work done in their career program.
    Students also have opportunities to earn college credit in some 
core academic classes through a dual enrollment program. Curriculum is 
developed that meets college standards, Great Oaks teachers are 
certified as adjunct college faculty, and students can earn 
transcripted credit valid at any Ohio college or university.
    So our students learn that they can--and do--achieve at a college 
level. The perception they have of their future changes.
    But I also mentioned breaking down financial barriers. The college 
credit earned saves them and their parents thousands of dollars 
individually. In fact, last year alone students earned more than 2,500 
credit hours through the dual enrollment program. That represents 
nearly a million dollars in tuition saved, based on Ohio tuition rates.
    The result is that currently about 50 percent of our graduates go 
directly to post-secondary education.
    We also provide second chances to those who have left high school. 
Our Gateway to Success program is a nationally recognized program which 
helps young adults, who have dropped out from their high school, earn a 
high school diploma. It's a unique program for two reasons: First, 
those students can actually earn a diploma from the school district 
they originally left. Second, Gateway to Success is located on several 
area college campuses, which allows students to experience the college 
environment. In less than 3 years, more than 200 young adults have 
graduated through Gateway to Success. Even more noteworthy is that 
about half of these students who thought they wouldn't even finish high 
school have since gone on to college.
    Preparing students for success in careers and college can only 
happen through partnerships with others within the community. I 
mentioned the partnerships with colleges and universities that provide 
our students with articulated and transcripted college credit, and 
which has helped us to develop a college-level academic curriculum.
    Equally important are partnerships with business and industry. By 
working closely with our partners we understand and anticipate the 
workforce development needs of our community. The programs we offer 
evolve as the economy evolves.
    So, based on labor market needs, we design and offer new programs. 
Once we begin to develop a program, we create strong links with leaders 
in that field. The career-technical curriculum is designed with their 
support and assistance, and the labs are equipped based on their 
recommendations. Each of our programs has an ongoing advisory council 
to keep our instructors firmly connected to the industry. Those links 
are valuable, too, as our students look for apprenticeship, internship, 
and co-op opportunities.
    One area that has received much attention from educators recently 
is the concept of 21st century skills. Business and post-secondary 
leaders tell us that successful graduates must be able to work 
collaboratively, solve complex problems, use technology, and be 
flexible in their education. The nature of career and technical 
education is that students are already learning those skills in their 
career labs.
    Again, I appreciate the chance to give an overview of career and 
college readiness from the Great Oaks and career-technical perspective. 
By anticipating emerging needs and partnering with others in the 
community to create programs and pathways with value, we are able to 
provide an education that creates options and opportunities for our 
graduates.
    Thank you for your time.
                                 ______
                                 
                              Attachments
     ESEA Reauthorization: Career and College Readiness in Practice
    <bullet> CTE programs are on the leading edge of preparing students 
to be both college ready and career ready. True career readiness 
requires more than just academic skills.

        <bullet>  All too often, the terms ``career ready'' and 
        ``college ready'' are used interchangeably, and discussions 
        around career readiness are limited to traditional academic 
        skills that allow students to successfully enroll in post-
        secondary education without remediation--what we think of as 
        college readiness.
        <bullet>  While there is no debate that a rigorous level of 
        academic proficiency is essential for any post-high school 
        endeavor, the reality is that it takes much more to be truly 
        considered ready for a career.
        <bullet>  Career readiness involves three major skill areas: 
        core academic skills and the ability to apply those skills to 
        concrete situations in order to function in the workplace and 
        in routine daily activities; employability skills (such as 
        critical thinking and responsibility) that are essential in any 
        career area; and technical, job-specific skills related to a 
        specific career pathway.
        <bullet>  Great Oaks provides rigorous academic skills, as well 
        as the employability and technical skills that are necessary 
        for career success.

    <bullet> Students must be engaged in learning and remain in school 
in order to achieve college and career ready standards--CTE provides 
the relevance necessary to engage and involve students in their high 
school education.

        <bullet>  Research has shown that students have a decreased 
        risk of dropping out of high school as they add CTE courses to 
        their curriculum, up to a point at which they are taking one 
        CTE course for every two academic courses. (Plank, et al., 
        ``Dropping Out of High School and the Place of Career and 
        Technical Education,'' National Research Center for Career and 
        Technical Education, 2005.)
        <bullet>  The National Dropout Prevention Center/Network has 
        identified the 15 strategies that have the most positive impact 
        on the dropout rate. These strategies include ``career and 
        technology education.'' According to the Center, ``A quality 
        CTE program and a related guidance program are essential for 
        all students.'' (National Dropout Prevention Center/Network, 
        ``Effective Strategies for Dropout Prevention.''
        <bullet>  One significant reason students drop out of school is 
        that they lose interest and motivation in education because the 
        curriculum does not seem to have a real-world application 
        (Bridgeland, DiIulio & Morison, ``The Silent Epidemic: 
        Perspectives of High School Dropouts,'' 2006). Academics are 
        often presented in isolation, instead of in a way that shines a 
        spotlight on how the subject is applicable in the context of 
        the real world.
        <bullet>  2006 poll by Peter D. Hart Research Associates, Inc. 
        of at-risk California 9th- and 10th-graders found that 6 in 10 
        respondents were not motivated to succeed in school. Of those 
        students, more than 90 percent said they would be more engaged 
        in their education if classes helped them acquire skills and 
        knowledge relevant to future careers.

    <bullet> Through the integration of core academic concepts, CTE 
programs support not only students' technical achievement, but academic 
achievement as well.

        <bullet>  CTE students are scoring above the State average on 
        ESEA required math and reading assessments in many States.
        <bullet>  Students who complete a rigorous academic core 
        coupled with a career concentration have test scores that equal 
        or exceed ``college prep'' students. These dual-concentrators 
        are more likely to pursue post-secondary education, have a 
        higher grade point average in college and are less likely to 
        drop out in the first year. (Southern Regional Education Board, 
        ``Facts About High School Career/Technical Studies.'')
        <bullet>  Students in project-based, highly integrated CTE and 
        academic science classes had higher test scores and showed a 
        much deeper understanding of the principles taught than 
        students taught in traditional lecture-based classes. 
        (Riskowski, J.L., et al. Exploring the Effectiveness of an 
        Interdisciplinary Water Resources Engineering Module in an 
        Eighth Grade Science Course, International Journal of 
        Engineering Education, 2009)
        <bullet>  Students using the National Research Center for CTE's 
        Math-in-CTE model, which uses highly integrated CTE and 
        academic teaching methods and courses, scored significantly 
        higher on two national math assessments than students using 
        traditional teaching methods. (Stone, J., et al., Building 
        Academic Skills in Context, National Research Center for CTE, 
        2006)
        <bullet>  Participation in a ``career major'' significantly 
        raises the likelihood of college attendance. (DeLuca et al., 
        ``Vocational Education Today: Participation Rates, Student 
        Composition, and Early Outcomes of the NLSY97,'' American 
        Sociological Association, 2004.)
        <bullet>  CTE students are significantly more likely than their 
        non-CTE counterparts to report that they developed problem-
        solving, project completion, research, math, college 
        application, work-related, communication, time management, and 
        critical thinking skills during high school. (Lekes et al., 
        ``Career and Technical Education Pathway Programs, Academic 
        Performance, and the Transition to College and Career,'' 
        National Research Center for CTE, 2007.)

    <bullet> We believe that every student needs some post-secondary 
education and training in order to truly be career ready, but in order 
to most efficiently use time and resources, have made offering these 
opportunities to students while they are still in high school a top 
priority.

        <bullet>  In order to actually be considered ready to enter a 
        career, an individual must also possess at least some level of 
        job-specific knowledge and skills. By offering students the 
        opportunity to earn industry certifications and credentials in 
        high school, students get a jump start on solid career 
        pathways.
        <bullet>  While more data is still needed in this area, 
        preliminary research has found that CTE students in a dual 
        enrollment program were more likely than their peers to:

          <bullet>  earn a high school diploma;
          <bullet>  enroll in college;
          <bullet>  have high post-secondary GPAs; and
          <bullet>  earn more credits after 3 years in post-secondary 
        education.
                       what is ``career ready?''
    National dialogue has escalated around the concepts of college and 
career readiness. Influential national and State policymakers have 
called for high schools to prepare students to be ready for both 
college and a career. But what do these terms really mean?
    All too often, the terms ``career ready'' and ``college ready'' are 
used interchangeably, and discussions around career readiness are 
limited to traditional academic skills that allow students to 
successfully enroll in post-secondary education. While there is no 
debate that a rigorous level of academic proficiency, especially in 
math and literacy, is essential for any post-high school endeavor, the 
reality is that it takes much more to be truly considered ready for a 
career.
    Career readiness involves three major skill areas: core academic 
skills and the ability to apply those skills to concrete situations in 
order to function in the workplace and in routine daily activities; 
employability skills (such as critical thinking and responsibility) 
that are essential in any career area; and technical, job-specific 
skills related to a specific career pathway. These skills have been 
emphasized across numerous pieces of research and allow students to 
enter true career pathways that offer family-sustaining wages and 
opportunities for advancement.
                            academic skills
    As has been documented by such organizations as ACT and Achieve, 
career-ready core academics and college-ready core academies are 
essentially the same, thus creating overlap in the preparation students 
need to be ready for post-secondary education and careers.\1\ All 
students need foundational academic knowledge, especially in math and 
English language arts, and, in today's economic environment, all high 
school students need the academic skills necessary to pursue post-
secondary education without remediation--the measure many consider 
``college readiness.''
---------------------------------------------------------------------------
    \1\ Achieve, Inc., ``What is College- and Career-Ready?,'' 
www.achieve.org/files/Collegeand
CareerReady.pdf.
---------------------------------------------------------------------------
    However, to truly be career-ready, students also need to be able to 
apply academics in context, and some academic skills need more 
attention and development. For example, employers often cite 
deficiencies in English and written communications, such as memos, 
letters and complex technical reports. This supports the idea that most 
of the written material students will encounter in their careers is 
informational in nature, such as technical manuals and research 
articles, and they must be equipped academically to analyze and use 
these materials. Too often, these skills are not emphasized in 
traditional academic classrooms. Workplace deficiencies in math are 
also commonly noted, with more attention needed on areas such as data 
analysis and statistics, reasoning and solving mathematical 
problems.\2\
---------------------------------------------------------------------------
    \2\ Olsen, Lynn, ``What Does `Ready' Mean?,'' Education Week, 
www.educationalliance.org/StateScholars/Downloads/
WhatDoesReadyMean.pdf.
---------------------------------------------------------------------------
    Students must also be able to apply academic knowledge to authentic 
situations they may face in their careers, a skill that takes practice 
and intentional instruction that may need to be tailored to a student's 
specific career goals. For example, students preparing to be nurses 
need to be able to calculate and apply ratios, proportions, rates and 
percentages to determine drug dosages,\3\ while construction students 
need to be able to apply geometrical principles to design and implement 
building plans.
---------------------------------------------------------------------------
    \3\ Olsen, Lynn, ``What Does `Ready' Mean?''
---------------------------------------------------------------------------
                          employability skills
    Employability skills have often been cited by employers as the 
skills most critical to workplace success in the 21st-century economy. 
These skills include (but are not limited to) critical thinking, 
adaptability, problem solving, oral and written communications, 
collaboration and teamwork, creativity, responsibility, 
professionalism, ethics, and technology use. Numerous groups have 
worked with business and industry leaders to identify employability 
skills critical to employee success, including the 1990 U.S. Department 
of Labor Secretary's Commission on Achieving Necessary Skills that 
produced the report ``What Work Requires of Schools: A SCANS Report for 
America 2000,'' and, more recently, such groups as the Partnership for 
21st Century Skills and the Society for Human Resource Management 
(SHRM).
    The report ``Critical Skills Needs and Resources for the Changing 
Workforce,'' \4\ by SHRM, stated that, ``Overall, employers placed the 
greatest weight on employee adaptability and critical thinking skills. 
HR (human resource) professionals and employees both reported that 
adaptability/flexibility and critical thinking/problem-solving skills 
were of greatest importance now compared with 2 years ago.''
---------------------------------------------------------------------------
    \4\ Society for Human Resource Management, ``Critical Skills Needs 
and Resources for the Changing Workforce: Keeping Skills Competitive,'' 
www.shrm.org/Research/SurveyFindings/Articles/Pages/
CriticalSkillsNeeds.aspx.
---------------------------------------------------------------------------
    In the 2006 report, ``Are They Really Ready to Work?'' \5\ 
employability skills ``dominate rankings of knowledge and skills 
expected to increase in importance over the next 5 years.'' Employers 
identified critical thinking/problem solving, information-technology 
application, teamwork/collaboration, creativity/innovation and 
diversity as the top five such skills.
---------------------------------------------------------------------------
    \5\ The Conference Board, Corporate Voices for Working Families, 
Partnership for 21st Century Skills, and the Society for Human Resource 
Management, ``Are They Really Ready to Work? Employers' Perspectives on 
the Basic Knowledge and Applied Skills of New Entrants to the 21st 
Century U.S. Workforce,'' www.21stcenturyskills.org/documents/
FINAL_REPORT_PDF09-29-06.pdf.
---------------------------------------------------------------------------
    Students must be provided opportunities to gain these skills and to 
learn to apply them to real-world life and work situations. Many of 
these employability skills are also necessary for ``college 
readiness,'' creating some additional overlap between the two areas.
                            technical skills
    In order to actually be considered ready to enter a career, an 
individual must also possess at least some level of job-specific 
knowledge and skills. In the National Association of Manufacturers 2005 
Skills Gap Report, ``technical skills'' was the top response to the 
question, ``What types of skills will employees need more of over the 
next 3 years?'' \6\ While many career opportunities include a strong 
element of on-the-job training, some of these technical or industry-
based skills must be acquired in advance. For example, technical skills 
are required for licensure in many professions, such as in most health 
care fields, or for broader industry certifications, such as the 
American Welding Society's Certified Welder credential.
---------------------------------------------------------------------------
    \6\ National Association of Manufacturers, ``2005 Skills Gap 
Report--A Survey of the American Manufacturing Workforce,'' 
www.nam.org//media/Files/s_nam/docs/235800/235731.pdf.ashx.
---------------------------------------------------------------------------
    Through the States Career Clusters Initiative,\7\ business and 
industry leaders have identified key knowledge and skill statements 
across 16 career clusters and 79 more specific pathways. These 
statements represent what students need to know and be able to do to be 
successful in the specified career area. While some of the statements 
cover the academic and employability-related areas discussed above, 
there are also key technical skills highlighted. The cluster-level 
skill statements are very broad, providing students with a foundation 
of knowledge that could be applied in numerous related careers. More 
specific pathway-level skills begin to hone students' abilities in a 
more defined career area.
---------------------------------------------------------------------------
    \7\ States Career Clusters Initiative, www.careerclusters.org.
---------------------------------------------------------------------------
                               conclusion
    Since most of the career opportunities for today's students will 
require some form of post-secondary education, there are certainly 
times when students will not be able to acquire the necessary academic, 
technical or employability skills in high school that will allow them 
to be career-ready without further education and training. Additional 
knowledge and specialization in one or more of these areas is often 
required either immediately after high school or in the future, 
depending on a student's career choices.
    However, regardless of a student's path, it takes all three of 
these broad skill sets for students to be ready for a career. Twenty-
first century high schools should focus on providing all students a 
strong foundation across all three areas so they are prepared for 
whatever their lives may bring.

    [Applause.]
    Senator Brown. Thank you, Mr. Jackson.
    Crystal, you said in your testimony that your coming to 
Metro and what you have done here were some of the wisest 
choices you have made in your life. Most people don't--most 
students in Columbus and in Franklin County and around the 
State don't have something quite like Metro to give them those 
opportunities.
    How do we structure, how do we encourage students in other 
schools to take advantage of early college opportunities? How 
do we get students and what clicks in a student's mind to make 
her want to do that, to make him want to do that?
    Ms. Jordan. I think it is important to remind students 
often of the importance of a college education, maybe remind 
them that life would be much, much easier with a college 
education, even with a Bachelor's degree or a Master's degree. 
So, as long as they are reminded often, I think that would 
help.
    Senator Brown. Did your parents go to college?
    Ms. Jordan. Yes. My mom graduated from college. My father 
attended college.
    Senator Brown. My wife, who is the first in her family to 
go to college, grew up in Ashtabula in the northeast corner of 
the State and went to Kent State. And she tells the story often 
of her first year in college, she would call home to talk to 
her parents, who didn't go to college, and ask advice, and they 
really never knew what to tell her.
    So students that--I am sure it is a mixed bag among 
students here whose parents did not have the opportunity or did 
not choose to go to college. How do you encourage them to 
understand the importance of college? It was easier for me. My 
parents went to college. It sounds perhaps a bit easier for 
you.
    It was expected of me. But in some families and, certainly 
what Mr. Caldwell said, in some places, it is almost expected 
that they don't. How do we get students more interested that 
way? What do you say to them? What do their teachers do? How do 
we structure a program in the high school to get them to want 
to do that?
    Ms. Jordan. I think it is important that teachers stay 
close to their students and talk to them often about college. 
Like I said, just talk about the importance of the education.
    Senator Brown. What about students working with other 
students? Were there any ideas you have? These aren't easy 
questions. So I don't expect definitive answers. But are there 
ways of getting students, is there a way without being, well, 
bullying or excluding people or anything to get students, sort 
of peers, talking to one another more about the opportunities?
    Ms. Jordan. Yes. I think it is important for students who 
have already decided to go to college to talk to their peers 
and make sure that they stay interested in school and move on 
to college.
    Senator Brown. Most of your friends--certainly most of your 
friends here--are going to college. Most of your friends back 
at--you went to Walnut? Is that where you went?
    Ms. Jordan. That is my home school.
    Senator Brown. That was your home school. That is OK. So 
most of your friends there have parents who went to college and 
talk about it?
    Ms. Jordan. A lot of my friends, actually, are the first to 
go to college, but they are sure that they are going. And we 
talk about it a lot.
    Senator Brown. Mr. Caldwell, your graduation rates are 
pretty incredible from high school. What do you do there at 
Wolf Creek that other schools in Appalachia don't do to have 
those kind of graduation rates?
    Mr. Caldwell. That is an excellent question. Wolf Creek is 
a very unique community. It is a community that the parents 
support. We have a levy passage rate that is phenomenal. If you 
ever see us play an extracurricular activity or parliamentary 
procedure competition, anything, the gym is full. The community 
is behind the school.
    Senator Brown. Excuse me. Are you demographically different 
in terms of the educational level and the income level of 
families, others in Washington or Meigs or Vinton or----
    Mr. Caldwell. I am really glad you asked that. We are 
unique for the now 31-county Appalachian area. Our average 
income of our residents, according to the latest data, 2007 
Ohio income tax, is $26,000. So, no.
    But by comparison, our unemployment rate is less than 4 
percent for our school district community. We have two power 
plants in our community. So, believe it or not, Bexley is 
ranked right below us on the Ohio School Facilities Commission. 
We are, actually, by the State of Ohio classified as high 
wealth, embedded----
    Senator Brown. Because of the property tax? Because of the 
value of property?
    Mr. Caldwell. Per pupil valuation.
    Senator Brown. Per pupil valuation.
    Mr. Caldwell. But thank you, yes.
    We are not even closely related to when you referenced 
Vinton County or my home county of Meigs County. Very 
impoverished in those two particular counties. In my school 
district, we do have a 26 percent free and reduced lunch rate, 
but we have to beg our families to take advantage of it, 
believe it or not. They don't want to take advantage of it. Too 
proud.
    So, for us, it is expected to graduate. My home school 
district, Eastern Meigs County, 85 percent graduation rate. 
They have to work on it. Work to get students to attend school 
regularly. So it is a culture.
    Senator Brown. So why were you able to have such an 
increase? A better question, the increase that you mentioned in 
your testimony in graduation--in those that you had close to 
100 percent. I appreciate your empathy for those that didn't, 
and that is the mark of a good superintendent or a good human 
being that is always trying to help those that aren't doing 
quite as well.
    You start with close to 100 percent graduation from high 
school, and then you didn't do so well a few years ago with 
those going to college. But now you are doing much better. What 
can you suggest other counties--in Appalachia Ohio, other 
school districts--do on that second issue, to get those that 
graduate to go to college, like they do in Wolf Creek?
    Mr. Caldwell. It is exposure. I will give you an example. I 
am a product of Appalachia. This is difficult testimony for me. 
I am 55 years old, and I am intimidated by this entire 
environment because this is unique. I have attended----
    Senator Brown. Because all these kids are smarter than you 
and I? Is that the reason?
    [Laughter.]
    Mr. Caldwell. Actually, I would say I probably have the 
lowest IQ in the room.
    Senator Brown. I think you have done very well, Mr. 
Caldwell.
    Mr. Caldwell. Trust me, it is about exposure. When I said 
that our kids took the OACHE grant, and we went to Cleveland, 
many of our kids had never been to Cleveland and probably will 
never go back.
    I remember teaching, if I may, teaching driver's education 
when I was in Vinton County. And if you have ever been to 
Vinton County, it has one traffic light still to this day.
    Senator Brown. In McArthur.
    Mr. Caldwell. In McArthur. Still to this day in the entire 
county.
    Senator Brown. Can't relate to this, can you?
    [Laughter.]
    Mr. Caldwell. So I told the young man driving, ``Make a 
right on 50 and head toward Chillicothe.'' And he said, 
``Where?''
    I will never forget that. That is about exposure and 
opportunity.
    Now, if I may, they say when you use athletic analogies, it 
is time to retire. So I apologize for this. Maybe it is time. 
Four years ago, our girls basketball team played at 
Pickerington in the regionals, and we were destroyed by a team 
from Columbus. The team was better than us, but part of it was 
because we had never been to the regionals.
    Now, for the fourth year in a row, we have made it to the 
regionals. We still got beat this year in overtime by 3 points 
by another Columbus team. We are not intimidated anymore. It is 
about exposure and opportunity.
    If you invited me up here again next week--that is not 
soliciting, by the way.
    [Laughter.]
    I would be less intimidated just because I have been 
exposed to this.
    Twenty years ago, when I became a superintendent--actually 
18--when I became a superintendent, believe it or not, a trip 
to Columbus was still intimidating to me. So Appalachia is 
pretty unique in a lot of ways. I hope that answered your 
question or gave you thought.
    Senator Brown. That was a terrific answer. Thank you. And 
thanks for your honesty about that.
    I think we have all been there, when we went to college, 
when we went to--I mean, I think all of you understand. That 
was a great lesson from a very wise person. Whether your IQ is 
the highest in the room or not, there is a lot of wisdom there. 
But thank you for that.
    I think all of us, when we admit in weaker moments, your 
teachers, your principal, all of us have been in those 
situations where we don't know if we measure up--and now you 
do. So thanks.
    Ms. Silas-Butler, talk to me more about Project GRAD, about 
your feeder schools. What are the schools like Buchtel schools 
that are going to be part of Project GRAD, what do they have to 
agree to? It is not just something you give them. They earn it. 
Talk that through, if you will?
    Ms. Silas-Butler. Basically, the way Project GRAD is set 
up, in each school district, before Project GRAD can come into 
the district, the teachers have to vote. The teachers and 
administrative staff have to vote whether or not they will 
accept Project GRAD. Because it is not just, oh, we come in and 
we provide services. They have to agree to receive the 
services.
    So before we go into any district, they are exposed to the 
information, and sometimes they even visit some of our sites to 
make that determination. Then they actually have a vote to 
determine whether or not they want Project GRAD to come in.
    And once we go into a particular school, 100 percent of the 
students are considered Project GRAD students, 100 percent of 
the teachers are Project GRAD teachers. So it is not that you 
pick and choose your students or you pick and choose whether or 
not you want to do the programs. It is 100 percent. You made 
that agreement to do so.
    For example, in Akron, we have our elementary schools. We 
start with our elementary schools. Then we have a feeder 
program to our middle school, and then we have our high school. 
So those students--typically, they receive the services such as 
our math, social services, literacy, college readiness-type 
information in our lower grades. They receive that at all 
levels.
    We provide professional development for teachers. We have 
coaching where we send persons into the building to model for 
the teachers. We give a lot of support to the administrative 
staff, as well as the teaching staff. We also work with the 
families.
    Those are several of the areas that we work with, and then 
once we get to the middle school and high school, we also do 
additional programs and services for the teachers, as well as 
the students. We also--with our younger students as well, we do 
things.
    For example, with our program, every fall we have what is 
called ``Walk for Success.'' We target certain grade levels 
that we will go. For example, in Akron, we visit like the 
kindergarten homes, the--it depends on which year and what we 
are looking for. But we will visit the homes of all the 
kindergarten students, the fifth grade students because they 
are transitioning to middle school, our sixth graders because 
they are just the new kids on the block at the middle school, 
our eighth graders because they are transitioning from eighth 
to ninth, our ninth graders.
    And we go to their homes. We go out as a community. We go 
with the teachers, the school staff. We have a lot of community 
support, and we go out and we share all the services that we 
provide at Project GRAD, as well as what services are available 
in the Akron Public Schools and in the community.
    I am not trying to talk too long because I could talk on 
and on and on. But one of the cornerstones of our project is we 
have a learning contract for our kids and our students in high 
school. Those students in high school, they sign what is called 
a learning contract, which gives them certain requirements that 
they must meet in order to receive our scholarship.
    Our whole mission is to increase the high school and 
college graduation rates. But in addition to that, we provide a 
scholarship to those students, and they receive a scholarship 
of up to $4,000 each for them to go to college or a trade 
school or a technical school. Those students who receive the 
scholarship are required to take certain courses in high 
school.
    For example, under the requirements for graduation, you may 
currently only need to have 3 years in math, but we may require 
4 years. We require a foreign language. We require that the 
students must go to what is called our summer institutes on a 
university campus.
    As everyone has mentioned today, if you haven't been 
exposed to a college, you won't have a clue that you may need 
to go to college. So we have our summer institutes on college 
campuses. We typically have them on the University of Akron 
campus. We have college professors teaching the courses, and 
they are exposed to college at an early age.
    For example, our sixth and seventh grade students, we do a 
program called Kids to College because the earlier you expose 
students to college, it becomes a viable option. You know, just 
as was stated earlier by Mr. Caldwell, if you have never been 
to Columbus before, it is intimidating. If no one in your 
family has ever gone to college, little things such as, oh, you 
have to pay for textbooks. Gee, I have to pay for textbooks. 
You don't take those things into consideration.
    Just a host of different things we offer, and I don't want 
to take up all the time because I can----
    Senator Brown. Thank you then. That is good.
    Tell us about what do you see and what are you beginning to 
see in college outcomes? This program has been around. I 
believe you are in three Ohio cities, right, Lorain, Akron, 
Cincinnati?
    Ms. Silas-Butler. Yes.
    Senator Brown. Tell me what you are seeing in college 
outcomes.
    Ms. Silas-Butler. What we are seeing is, first of all, that 
our students are going to school more prepared for college. 
What we are finding that some of the reasons why we have 
students who are taking remedial courses in college is because 
many of our students haven't taken the ACT but only one time. 
And there is a lot of research on how many times you take the 
ACT. If you are prepared for--some schools, they start working 
with kids as early as eighth grade with the ACT. They explore 
the plan and things like that.
    Well, we are finding that a lot of our students are taking 
remedial courses in college because they have only taken the 
ACT one time, and their scores may not be as high as they need 
to be. So we are providing tutoring and services much earlier 
on for our students so we can have a higher success rate as it 
relates to college.
    Our graduation rates from high school are at least 80 
percent of our students are graduating from high school. This 
will be our first year in Akron to have students who will be on 
track to graduate from college. Because although we started in 
2002, our first group of scholarship recipients started in 
2006. So this will be our first year of students.
    Those are on the 4-year plan. They are doing very nicely. 
We know that many of our students are not financially prepared 
to go to college. So they are working. They are taking some 
time off. They are going part-time and things like that. But we 
are finding more and more students are going to college. We are 
finding that they are more successful.
    We also have a mentoring component where the students in 
college work with our high school students, as well as our 
younger students, to be--first, if someone my age, and I am 
younger than you, but my age trying to tell the students it is 
important to go to college. When they hear from their peers and 
they see from their people like the young lady here, Crystal, 
telling them how important it is to go to college, they 
understand it a lot better than hearing it from someone else.
    Senator Brown. Thank you.
    Ms. Phillips-Schwartz, you said every student, one of the 
criteria for Strive is every student should be supported 
outside of school. What do you do about that? What does that 
mean?
    Ms. Phillips-Schwartz. Well, one of the things that we 
really noticed when we started looking at the data was that 
everything can't happen within the school. And there are a lot 
of social service agencies providing services out there that we 
hadn't really coordinated well, that we hadn't been kind of 
measuring the success of, and hadn't necessarily been linking 
appropriately with the schools.
    So, basically, on the birth to career kind of path, we have 
been starting with the early childhood programs and services, 
connecting them up, starting to measure, collect data, measure 
how effective they are. And then once they are reaching school 
age, especially with what we are calling community learning 
centers, really focusing the entire community services--health, 
mental, a variety of services to the schools.
    For example, you go to school and you have dental services 
provided at your school. There are psychiatrists. Everything is 
kind of housed within the school so that everyone is working as 
partners.
    Senator Brown. Are you getting the Cincinnati Business 
Committee to connect with students so they can--some things as 
specific as internships and others as maybe less specific, more 
amorphous like some kind of mentoring? Or are businesses sort 
of adopting schools, doing things? I mean, I know there is some 
of that. Tell me about that.
    Ms. Phillips-Schwartz. Yes, there are, actually, and it 
varies according to business. But Strive has definitely helped 
us to link up with specific needs of schools.
    Taft Information Technology High School in Cincinnati is 
partnered with Cincinnati Bell, and they have actually had a 
partnership where the CEO, Jack Cassidy, and the principal of 
the school talk regularly, meet regularly, establish goals 
together. They have mentors----
    Senator Brown. Is any business doing it as well as 
Cincinnati Bell?
    Ms. Phillips-Schwartz. What is that?
    Senator Brown. Is any other company doing it as thoroughly 
and as----
    Ms. Phillips-Schwartz. There are others that are looking to 
that as a model. GE is one with Aiken, and there are others 
that have similar programs. But I wouldn't say any to that sort 
of extent, yes.
    Senator Brown. You said the teacher is the most important 
factor in all of this. I think most of us would agree with 
that. Make a pitch to these students about why they should be 
teachers.
    [Laughter.]
    Let me get her off the hook for a second while she is 
thinking. How many of you right now as students think you want 
to be teachers? High school, college, grade school, what?
    Male Speaker. I want to be a high school----
    Male Speaker. I am thinking grade school to high school.
    Male Speaker. I would like to be a history professor.
    Senator Brown. OK. So only three of you? Somebody back 
there, what do you want to teach?
    Female Speaker. Speaker. Elementary----
    Senator Brown. Elementary. OK.
    So convince the rest of them. Is there somebody else?
    Ms. Phillips-Schwartz. There is one more.
    Female Speaker. I want to be a high school literature 
teacher.
    Senator Brown. High school literature. Anybody else want to 
be a teacher? I mean, I don't expect you to know what you are 
going to do yet, and I expect those that think they know what 
they are going to do to change their minds, and that is all OK.
    Tell them why they should be teachers.
    Ms. Phillips-Schwartz. Well, I have some experience in this 
because I have a degree in education, and I am actually going 
to teach in the future. That is my plan.
    But I think it is simply that you have the tremendous 
opportunity to impact the future and make a difference in the 
world. I mean, I think there are very few careers in which you 
can really say you put in a hard day's work and really have 
impacted the future positively.
    Senator Brown. So now all of you want to be teachers, 
right?
    [Laughter.]
    Mr. Jackson, you mentioned the electrical contractors 
example. I have done about 150 roundtables around Ohio where I 
will meet, I will sit down with 15 or 20 people like we did 
yesterday with the workforce investment group in Akron and just 
listen, ask them questions. Ask each of the 15 or 20 or 22, 
whatever, questions. We will do it for an hour and a half or 
so.
    The first one I did was in Cincinnati back in my first year 
in the Senate, in early 2007. And I remember it was a group to 
talk about jobs and economic development and how we do it. One 
guy there was a building trades person. I think he was a 
pipefitter. I am not sure if he was a laborer or a pipefitter 
or electrician or a carpenter, but it doesn't matter.
    But he was talking about the long-term shortage in this 
country of trades people, people that want to be carpenters and 
pipe fitters and electricians and laborers and boilermakers and 
millwrights. And we talked about how those jobs are. No. 1, 
they are absolutely tickets to the middle class. No. 2, that 
they manage their own pensions. So there aren't the problems of 
companies running away with pensions as we have seen too often. 
And No. 3, they have good healthcare.
    If you are talking to students, now how do you--he was 
talking about the acute shortage there is going to be in the 
next 10 or 20 years in building trades. How do we answer that? 
How do you convince young men and women about the trades, 
especially in an economy right now where there are a lot of 
carpenters and electricians and pipe fitters that aren't 
working, but will be 2 years, 3 years, 5, 10, 20 years from 
now?
    What do you do to get more young men and women wanting to 
be electricians and pipe fitters and carpenters and 
millwrights?
    Mr. Jackson. I am old enough to go through the 1980s and 
the 1970s when we have seen the building trades and the 
letdown. We went through the same enrollment problems and the 
same shortages. I think one of the things is that, as a Nation, 
we have lost respect for the skilled tradesman, and I think 
that everybody's goal is to go to college and that is what has 
made our country, that is what made these facilities.
    I think it is for college and career ready. I think that 
the trade has changed, that you just don't stop with that 
trade. There is continuing education that goes along with that. 
And we believe that any career technical education program does 
prepare you.
    We know that in your life, you change careers seven or 
eight times or even more. It is tough right now in the trades, 
especially when they look at the national news and the local 
news, and they look at the construction and new construction. 
But it will come back and that we have to be prepared as a 
Nation, as a State, that we have to have the skilled trades 
represented. We have to have that. If we lose that sight, we 
will fail.
    It is very difficult, but we have a lot of young people 
that still have that desire. They still like working with their 
hands. They still love to have that ability to work outside. 
Not everyone wants to work behind a desk.
    There is a lot of education that goes back to career 
orientation and exploration that really students understand. 
When they think of construction trades, they only know what 
they have been exposed to or what they have seen on TV. Well, 
there are so many career pathways. There are so many different 
jobs in the construction trades that they are not even aware 
of, which some are working out in the field and some is working 
behind the scenes and so on.
    I think we have to do a better job, not only in the 
construction trades or manufacturing or the transportation 
industry, but all of the career fields and do a better job of 
explaining what are career opportunities for young people.
    Senator Brown. One of my missions in the U.S. Senate in the 
next 10 years is to make Ohio a leader in clean energy 
production. Ohio is--we have more jobs in solar energy in 
Toledo manufacturing, solar manufacturing in Toledo, OH, than 
any city in America.
    The Governor and I were in Cleveland yesterday or 2 days 
ago. We are on this path to likely being the first city, the 
first place in the world to have wind turbine fields in fresh 
water, in Lake Erie off the coast of Cleveland, and Ohio can be 
a real leader in this. We build things very well in this 
country, better than anywhere in the world.
    Young people, manufacturing, my guess is if I ask you to 
put your hands up if you wanted to go into manufacturing, there 
would be no more than one or two or three of you, fewer than 
teachers, as important as all of that is. One of the things I 
have thought about is--how many students are there at Great 
Oaks, roughly?
    Mr. Jackson. Oh, we serve probably around 12,000 between 
9th and 12th graders, yes.
    Senator Brown. Do you try to get students to go into an 
auto plant or to go in--I mean, you don't have a lot of auto 
plants right in Cincinnati. But go into the GE plant or to go 
into a place where they make things?
    Fifteen years ago, I took my daughters, who are now grown, 
through an auto plant that was in our neighborhood, a Ford 
plant. And they got to see Thunderbirds made and how they paint 
the car and how they put the windshield on and how they attach 
the doors.
    And I mean, they didn't end up going into manufacturing, 
but they were pretty intrigued by that. Maybe I was more 
intrigued than they were. But they were pretty intrigued by 
seeing that.
    Do we, at our JVS and our vocational schools and our career 
centers, have programs to let students see these things when 
they are in 8th grade or 10th grade or whatever the best time 
to see people actually making things and what it might lead to?
    Mr. Jackson. When they come to career technical centers, 
very much. We don't exist without our business and industry 
involvement. We don't exist, and we shouldn't exist. So we are 
very close to them and work with them and our students with 
mentoring programs, job shadowing, and all those different 
components.
    I think it goes back to career education. When you talk 
about K through 8, what is the exposure of careers. Then again, 
I used to be a high school principal, a career technical 
director, used to talk to my colleagues. This is 20-some years 
ago. And, ``Oh, you are the one who teaches them to go to 
work.''
    And I kept thinking, ``Well, what are you supposed to be 
doing?'' You know, I mean, you are going to high school. Isn't 
that what you are supposed to be doing, too?
    So I think the bridge has to happen that the reason that 
these students are in school is for a career, and I know that 
is what their parents are wanting, the careers, job, move out. 
And sometimes I think that that bridge has got to be gapped a 
little bit more is that this is about career pathways.
    This is about making decisions along the way. What am I 
good at? What do I like? And again, what is the exposure that 
students must have to be able to make some good decisions?
    And sometimes I think that we are just in a lockstep that 
you go through and we are backward 200 years ago in some of how 
we deliver education. I don't know if that answers your 
question.
    Senator Brown. That was good. Thank you.
    Thank you all. Thanks for your testimony.
    I have just a couple of closing comments.
    I am still thinking about your comment on being intimidated 
when you came here, and the intimidation. My wife, who is a 
writer, is a very good writer. She is actually a Pulitzer Prize 
winner for the Cleveland paper. And she and I have noticed--we 
have talked about this a lot--that when we go to meetings and 
we go to groups of this size or we go to a roundtable of 15 
people, that women, especially young women, are a lot less 
likely to speak up than young men.
    One of the reasons we have a majority of women on this 
panel is that it is important to me. I am the father of 
daughters, two daughters. And it is so often in a group there 
will 50 people in the group, and I will speak, and then I will 
take questions. And there is roughly half women and men of any 
age, and it is almost always the men that speak up.
    And part of the reason we came to a high school and part of 
the reason we have a panel that is a majority women is to 
encourage you to speak up. There is a quote that someone said 
some years ago, ``Speak up even if your voice shakes.''
    Even if you are intimidated, even if you think you are 
nervous, you probably won't sound nervous when you speak up. 
And it is an opportunity to speak out and get stronger and make 
a difference in this world. So I would just close with that.
    And then I would read this. My daughter sent me this quote 
right before this, about an hour ago. It is Abraham Lincoln. He 
said, ``The philosophy of the schoolroom in one generation will 
be the philosophy of Government in the next.'' Which I have 
never heard before, but it is a wonderful quote.
    I thank you all for being here. I thank you, the panel 
especially.
    Anyone on the panel that would like to add anything else, 
the roll is open, the record is open for 7 days. So if you 
would like to get in touch with our office and add anything, if 
you want to write a whole speech, Kristi, on why people should 
go into education, you could even do that. But if any of you 
have anything you want to add, the roll is open for another 
week.
    I appreciate you. I appreciate especially Metro. I 
appreciate the students sitting here quietly, most of you 
staying awake. I really appreciate that.
    [Laughter.]
    The meeting is adjourned. Thanks.
    [Whereupon, at 3:30 p.m., the hearing was adjourned.]




</pre></body></html>
